HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at Jewish Home of Greater Harrisburg,"(A-03-04-00208)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at Jewish Home of Greater Harrisburg," (A-03-04-00208)
January 18, 2005
Complete
Text of Report is available in PDF format (234 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Jewish
Home of Greater Harrisburg was in compliance with Federal and State staffing laws and regulations for nursing homes.  Based
on our review of 72 direct care employees, Jewish Home generally complied with the Federal and State staffing laws and
regulations that we reviewed.  A review of the direct care employees disclosed that Jewish Home did not obtain a
current State background check for one direct care employee.  We recommend that Jewish Home assure that all newly
hired employees have a background check that is less than 1 year old.